No.- - - - -

Jn tltbe
6upreme Geourt et tn;be llniteb 6tatei
SHANGIA WASHINGTON, Petitioner,
vs.
WARDEN CEDRIC TAYLOR et al., Respondents,

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

CERTIFICATE OF SERVICE

The undersigned attorney certifies that on the date of filing a true copy of the
foregoing Petition for Writ of Certiorari with Appendix and Motion for Leave to Proceed In
Forma Pauperis and accompanying declaration, Certificate of Word Count, and Certificate of
Service were served by placing in the United States mail, with adequate postage prepaid and
addressed to:
Rodney H Atreopersaud
Assistant Attorney General
40 Capitol Square SW
ATLANTA, GA 30334
This 30 th day of June, 2021

McillStokes
:?'
~#~
Attorney for Petitioner

5372 Whitehall Place SE
Mableton, Georgia 30126
Telephone: 404-352-2144
Facsimile: 678-742-7559

